TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                             Improvements to the
                  Modernized e-File System Will Help Provide
                           Intended Benefits to the
                   Internal Revenue Service and Taxpayers



                                           June 18, 2008

                              Reference Number: 2008-20-122




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 18, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Improvements to the Modernized e-File System
                                Will Help Provide Intended Benefits to the Internal Revenue Service
                                and Taxpayers (Audit # 200720035)

 This report presents the results of our review of the processing and capabilities of the
 Modernized e-File system. The overall objectives of this audit were to assess the accuracy and
 completeness of data processed by the Modernized e-File system and determine whether the
 system provides the intended benefits to the Internal Revenue Service (IRS) and taxpayers. This
 review was part of our Fiscal Year 2007 Annual Audit Plan for reviews of the IRS Business
 Systems Modernization1 efforts.

 Impact on the Taxpayer
 The Modernized e-File system is a replacement of the current IRS tax return filing technology
 with a modernized, Internet-based electronic filing platform. The IRS can make improvements
 to the system to provide intended benefits that will help enhance and expedite service to
 taxpayers. These improvements will help ensure that taxpayers use appropriate tax returns and
 report accurate and complete tax return information.

 Synopsis
 The Modernized e-File system has been successful in processing electronically filed tax returns
 for corporations, partnerships, and exempt organizations. The number of tax returns filed

 1
     See Appendix VII for a Glossary of Terms.
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers


through the Modernized e-File system increased 127 percent in 2007 to approximately
2.23 million from 982,000 in 2006. This system facilitates taxpayer account processing and also
allows electronically filed tax information to be accessed for use in tax administration
compliance activities by the IRS business operating divisions.
The Modernized Tax Return Database is the legal repository for original electronically filed tax
returns received by the IRS through the Modernized e-File system. Some of the data from each
of the electronically filed tax returns are sent from the Modernized Tax Return Database to the
taxpayer’s account residing on the IRS Business Master File. Information received through the
Modernized e-File system and stored in the Modernized Tax Return Database properly matched
the information stored in the IRS Business Master File for 97.5 percent of the tax returns
processed from January 1 through June 30, 2007. The remaining 2.5 percent either did not
match because of changes made by the IRS during the processing of submitted tax returns or
because taxpayers filed a different type of form or used a different tax period from prior tax
returns submitted.
The IRS does not have a formal process for identifying, reporting, and resolving issues related to
tax returns processed by the Modernized e-File system, nor does it have a process for submitting
and tracking issues requiring attention by the Wage and Investment Division’s Submission
Processing function and the Electronic Tax Administration office. In addition, available
front-end tax return validation controls were not being used. These controls can prevent
unnecessary tax return processing, error resolution activity by the Submission Processing
function, and correspondence with taxpayers.
The Modernized e-File system makes electronically filed tax return data available to the business
operating divisions and allows authorized users to access, print, and download tax return
information. However, because of system limitations, users must also access other IRS systems
to obtain the tax return information they need.
The Modernized e-File Integration project was initiated in 2005 to provide the IRS with more
convenient access, print, and download capabilities for the business operating divisions.
However, these capabilities were not delivered, primarily because funding was not available. As
a result of the system limitations, the Large and Mid-Size Business Division and the Tax Exempt
and Government Entities Division use their own applications to access Modernized e-File system
filed tax return data. The Small Business/Self-Employed Division generally does not use
electronic versions of tax returns but recently started using electronic display capabilities to
identify tax returns for examination. Nevertheless, the Small Business/Self-Employed Division
does not use the Modernized e-File system for tax return control, delivery, or examination
processes, nor does it capture cost data for the printing, shipping, and handling of tax returns
filed using the Modernized e-File system.
With the Department of the Treasury electronic filing mandate for corporations and exempt
organizations and the migration of tax return filing from paper to the electronic form, the IRS

                                                                                                   2
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers


can expect increases in the number of electronically filed tax returns. The increases will also add
to the number of tax returns that require manual resolution by the Submission Processing
function.
In recognition of the increased number of electronically filed tax returns, the business operating
divisions are exploring possibilities for developing systems to take advantage of the electronic
format of tax returns and tax return information. However, only a small portion of these ideas
and plans have been developed, and these concepts have not been incorporated into the IRS
Information Technology Modernization Vision and Strategy.

Recommendations
To address the Modernized e-File system processing issues, we recommended that the
Commissioner, Wage and Investment Division, require that the Director, Submission Processing,
and the Director, Electronic Tax Administration: (1) develop a formal process for identifying,
reporting, and resolving Modernized e-File system application processing issues that require
subsequent tax return and account adjustment activity; and (2) perfect the validation controls in
the Modernized e-File system to verify that taxpayers file the correct tax form based on their
established filing election.
To address the limitations the IRS business operating divisions have in using electronically filed
tax information for compliance purposes, we recommended that the Deputy Commissioner for
Operations Support and the Deputy Commissioner for Services and Enforcement ensure that the
business operating divisions and the Modernization and Information Technology Services
organization coordinate the capabilities of the Enterprise Return Retrieval system and the Small
Business/Self-Employed Division’s Technology and Data Integration Plan into the Information
Technology Modernization Vision and Strategy. The Information Technology Modernization
Vision and Strategy is the IRS effort to determine the priorities around modernizing front-line
tax administration, and it leverages existing systems and new development to optimize capacity,
manage program costs, and deliver business value.

Response
The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement agreed with our recommendations. Planned corrective actions include
developing a formal process for identifying, reporting, and resolving Modernized e-File system
application processing issues that require subsequent tax return and account adjustment activity.
Further, the IRS has implemented validation controls to help ensure corporations and
partnerships file appropriate tax forms through the Modernized e-File system. The IRS has
decided to postpone implementing the validation control for Sub-Chapter S corporations at this
time due to process and system limitations. We concur with management’s decision to postpone

                                                                                                     3
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers


implementing the validation control for Sub-Chapter S corporations until process and system
improvements allow this action. In addition, the Small Business/Self-Employed Division will
submit future releases of the Enterprise Return Retrieval project as investment proposals for
corresponding Information Technology Modernization Vision and Strategy cycles. The
Small Business/Self-Employed Division’s Technology and Data Integration Plan will
communicate the approach for using technology to achieve the Division’s business objectives
and supporting organizational priorities. This Plan is not an enterprise plan, but the Small
Business/Self-Employed Division will use it to collaborate with other business operating
divisions and, where possible, maximize the application of technological initiatives.
Management’s complete response to the draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-5894.




                                                                                                4
                                    Improvements to the Modernized e-File System
                                      Will Help Provide Intended Benefits to the
                                       Internal Revenue Service and Taxpayers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernized e-File System Generally Provides Complete and
          Accurate Tax Return Information for the Internal Revenue Service’s
          Processing Operations ......................................................................... Page 3
          A Formal Process Is Not In Place to Identify, Report, and Resolve
          Problems Related to Modernized e-File Tax Return Processing ..................Page 3
                    Recommendations 1 and 2: ..............................................Page 10

          The Modernized e-File System Is Not Being Used to the Extent
          Originally Planned, and the Intended Benefits to the Business Operating
          Divisions Are Not Being Achieved ..............................................................Page 11
                    Recommendation 3:........................................................Page 14


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Analysis of Modernized e-File Tax Return Sample..............Page 26
          Appendix VI – Enterprise Life Cycle Overview ..........................................Page 31
          Appendix VII – Glossary of Terms ..............................................................Page 35
          Appendix VIII – Management’s Response to the Draft Report ...................Page 38
      Improvements to the Modernized e-File System
        Will Help Provide Intended Benefits to the
         Internal Revenue Service and Taxpayers




             Abbreviations

IRS    Internal Revenue Service
                               Improvements to the Modernized e-File System
                                 Will Help Provide Intended Benefits to the
                                  Internal Revenue Service and Taxpayers




                                             Background

The Modernized e-File system is a replacement of the
current Internal Revenue Service (IRS) tax return filing                          Development of the
technology with a modernized, Internet-based electronic                     Modernized e-File system aims
filing platform. The Modernized e-File system supports                     to increase electronic tax return
and facilitates the IRS’ commitment to achieve the IRS                      filing through a system that is
Restructuring and Reform Act of 19981 goal of receiving                      efficient and easy to access,
                                                                                   use, and maintain.
at least 80 percent of all tax returns in electronic form.
This system also serves to streamline filing processes and
reduce the costs associated with paper tax returns.
In February 2004, the IRS deployed the initial Modernized e-File system release,2 which
provides an option for Internet-based filing of the U.S. Corporation Income Tax Return
(Form 1120), the U.S. Income Tax Return for an S Corporation (Form 1120S), and the Return of
Organization Exempt From Income Tax (Form 990). Subsequent enhancements added more
forms associated with corporations, the public disclosure capabilities required by the Tax
Exempt and Government Entities Division, and the ability to file extensions for Forms 1120 and
1120S. The Modernized e-File system also developed the Federal/State Single Point Filing
System platform and the Federal/State components for Forms 1120 and 990. The Federal/State
Single Point Filing System platform permits tax return transmitters to submit multiple Federal
and State tax return types within one electronic transmission.
In January 2005, the Department of the Treasury issued regulations mandating electronic filing
requirements for corporations and exempt organizations. Corporations and exempt organizations
filing at least 250 tax returns with assets of $10 million or more with taxable years ending on or
after December 31, 2006, must file electronically.
In January 2007, Release 4 of the Modernized e-File system went into production and added the
U.S. Return of Partnership Income (Form 1065) and the U.S. Return of Income for Electing
Large Partnerships (Form 1065-B) as well as Federal/State Single Point Filing System access for
partnership tax returns. The IRS also plans to add individual tax returns to the Modernized
e-File system in three phases beginning in August 2009, with planned completion in
January 2011.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix VII for a Glossary of Terms.
                                                                                                              Page 1
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers



The Modernized Tax Return Database is the legal repository for original electronically filed tax
returns received by the IRS through the Modernized e-File system. This repository allows for
more efficient processing and analysis and multiple inquiries of the tax return information.
Some of the data from each electronically filed tax return are sent from the Modernized Tax
Return Database to taxpayers’ accounts residing on the IRS Business Master File. The
Employee User Portal allows IRS employees to access data on the Modernized Tax Return
Database and on tax administration processing systems and financial information systems in a
secure, authenticated session.
This review was performed at the Modernization and Information Technology Services
organization facility in New Carrollton, Maryland, during the period September 2007 through
February 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This review was
part of the Treasury Inspector General for Tax Administration Fiscal Year 2007 Annual Audit
Plan coverage under the major management challenge of Modernization of the IRS. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                           Page 2
                                Improvements to the Modernized e-File System
                                  Will Help Provide Intended Benefits to the
                                   Internal Revenue Service and Taxpayers




                                       Results of Review

The Modernized e-File System Generally Provides Complete and
Accurate Tax Return Information for the Internal Revenue Service’s
Processing Operations
The Modernized e-File system has been successful in
processing electronically filed tax returns for corporations,   The volume of tax returns filed
partnerships, and exempt organizations. The total number           electronically through the
of tax returns filed through the system increased               Modernized e-File system more
                                                                       than doubled from
127 percent in 2007 to approximately 2.23 million from          Calendar Year 2006 to Calendar
982,000 in 2006. The Modernized e-File system                    Year 2007, while experiencing
expeditiously facilitates taxpayer account processing and          relatively few processing
also allows electronically filed tax information to be                    inaccuracies.
accessed for use in tax administration compliance
activities by the IRS business operating divisions.
We analyzed tax returns filed electronically using the Modernized e-File system from
January 1 through June 30, 2007. We found that the information received through the system
and stored in the Modernized Tax Return Database properly matched the information stored in
the IRS Business Master File for about 97.5 percent of the 936,026 tax returns processed during
this period. The remaining 2.5 percent did not match because of changes made during
processing. These changes were made by the Wage and Investment Division’s Submission
Processing function to correct errors, such as mathematical miscalculations, and omissions of
required information such as taxpayer filing status.

A Formal Process Is Not In Place to Identify, Report, and Resolve
Problems Related to Modernized e-File Tax Return Processing
The IRS’ Enterprise Life Cycle3 requires new releases of the Modernized e-File system to pass
application and system integration and testing prior to deployment into the IRS tax return
processing operations. However, we found that after a new Modernized e-File release is
deployed, the IRS does not perform error detection or trending to identify systemic or processing
problems with tax returns filed through the system. By not having a formal process in place,
needed improvements and enhancements to the system could be delayed, reducing its
effectiveness.

3
    See Appendix VI for Enterprise Life Cycle Overview.
                                                                                           Page 3
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



Our analysis of tax returns electronically filed through the Modernized e-File system from
January 1 through June 30, 2007, found that the information received through the system and
stored in the Modernized Tax Return Database did not match the information stored in the IRS
Business Master File for approximately 2.5 percent (23,188) of the tax returns filed. The
mismatches consisted of 11,601 tax returns that did not have matching information and an
additional 11,587 tax returns that did not post to the Business Master File. We analyzed the
Modernized Tax Return Database tax returns that did not post to the Business Master File and
identified several conditions. See Appendix V for an analysis of these tax return populations.

Invalid tax returns submitted through the Modernized Tax Return Database did
not post to the Business Master File
Taxpayers may elect to convert between a Form 1120 corporation, Form 1120S corporation, or
Form 1065 partnership. Because these various entities treat business income and taxes
differently, it might be in the taxpayers’ best interest to convert from one type of entity to
another depending on their specific tax and business situations. To make these conversions,
taxpayers must notify the IRS of their election to change from one entity to another and receive
approval prior to filing their tax returns.
The Modernized Tax Return Database and the Business Master
File did not always agree on the taxpayer’s entity information,       The taxpayers identified by
such as the taxpayer’s qualification to file as a Form 1120           the IRS as not meeting the
                                                                          criteria to convert to
corporation, Form 1120S corporation, or Form 1065                     another filing status create
partnership, or with the tax periods reported by the taxpayer.         processing problems that
However, procedures were in place in the Submission                      the IRS must resolve.
Processing function to perfect tax return information sent from
the Modernized Tax Return Database to the Business Master
File. These procedures require correspondence with the taxpayer to resolve issues around the
propriety of the tax return type necessary for filing. The taxpayer has 60 calendar days to
respond and must either provide proof of his or her election for the form type filed or resubmit
the correct form. If the taxpayer does not respond in 60 calendar days, the Submission
Processing function converts the tax return for filing using the taxpayer’s previous filing status as
reflected in the Business Master File.
Of 11,587 tax returns we analyzed that did not post to the Business Master File, the Submission
Processing function properly resolved the 34 exempt organization returns included in this
population. The remaining 11,553 tax returns consisted of 11,005 Form 1120 and Form 1120S
corporation tax returns, and 548 Form 1065 partnership tax returns. The Submission Processing
function has resolved or is in the process of resolving these tax returns. From this population, we
analyzed a sample of 124 Form 1120 and Form 1120S tax returns and 74 Form 1065 tax returns
filed through the Modernized e-File system that did not post to the Business Master File.


                                                                                              Page 4
                                 Improvements to the Modernized e-File System
                                   Will Help Provide Intended Benefits to the
                                    Internal Revenue Service and Taxpayers



  The majority of the tax returns that did not post involved the tax return filing status or tax period.
  Other reasons for the tax returns not posting could not be identified from the posting records.
  However, the Submission Processing function resolved most of the tax returns and posted the
  corresponding Modernized Tax Return Database tax return information to the Business Master
  File. Figure 1 presents the reasons for the tax returns that did not post and the time period
  required by the Submission Processing function to perfect the accounts with either acceptance of
  the original tax return or processing the taxpayer’s subsequent submission of the correct tax
  return.
             Figure 1: Analysis of Resolutions for the Tax Return Information
           on the Modernized Tax Return Database and the Business Master File

                                           Corporate Tax Returns                    Partnership Tax Returns
                                           (Forms 1120 & 1120S)                          (Form 1065)
         IRS Resolution                 Number of          Average Days          Number of          Average Days
                                       Tax Returns          to Resolve          Tax Returns          to Resolve
     Changed Filing Status                    71                  132                  52                  146
      Changed Tax Period                      11                  154                   9                  149
   Other Processing Actions                   35                  51                    7                  183
       Total Tax Returns
     Corrected and Average                  117*                  110                 68*                  150
        Days to Resolve
Source: Treasury Inspector General for Tax Administration extract of tax return account data from the Modernized
Tax Return Database and the Business Master File for the period January 1 through June 30, 2007.
*As of January 23, 2008, the Submission Processing function was in the process of resolving tax returns that did not
post to the Business Master File relating to seven corporate tax returns and six partnership tax returns. These tax
returns are not included in the above totals.

  The tax return receipt dates did not always agree on the Modernized Tax Return
  Database and the Business Master File
  Of the sampled 124 Form 1120 and Form 1120S tax returns filed through the Modernized e-File
  system, 42 accounts (34 percent) subsequently posted to the Business Master File with different
  receipt dates compared to the Modernized Tax Return Database receipt dates. The IRS issued
  these taxpayers a notice informing them that they did not qualify to file the form because they
  did not notify the IRS in a timely manner of their election to file as that type of taxpayer entity
  (e.g., to use Form 1120 or Form 1120S). For these accounts, taxpayers had to resubmit the
  originally filed tax information on another type of tax return.


                                                                                                              Page 5
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



If a taxpayer did not reply to the notice, the Submission Processing function converted the tax
return to the taxpayer’s qualified filing status and manually input the refiled tax return received
date in the Business Master File. However, the correct received date for tax returns filed using
the Modernized e-File system is the date the tax return was accepted by the Modernized e-File
system.
Management Action: After we notified the Submission Processing function of this condition,
interim guidance was issued on October 11, 2007, and the Internal Revenue Manual was updated
effective January 1, 2008, to ensure that the correct received date is used.

Some corporate tax return information filed through the Modernized e-File system
is not correctly processed and reported
Depreciation Expense Calculation Errors: Taxpayers often report depreciation expense totals
on Form 1120 or Form 1120S. However, Modernized e-File tax returns with depreciation entries
on multiple supporting forms are incorrectly added together to calculate the total depreciation
expense. The Submission Processing function has to correct this error during tax return
processing.
From January 1 through June 30, 2007, taxpayers submitted 4,403 Modernized e-File Form 1120
and Form 1120S tax returns that resulted in different depreciation expenses reported on the
Modernized Tax Return Database and the Business Master File for the tax returns filed. We
analyzed a sample of 60 tax returns with different depreciation expense totals reported. Of the
60 tax returns, 49 included multiple depreciation entries that were incorrectly added together in
calculating the total depreciation expense. The Submission Processing function identified and
corrected these depreciation calculation errors.
Because of the nature of this condition, the Submission Processing function brought this issue to
the attention of the Wage and Investment Division’s Electronic Tax Administration office in
August 2007. Although a formal process is not in place to communicate the types of errors it
identifies, the Submission Processing function provided email messages to the Electronic Tax
Administration office about this problem. The Electronic Tax Administration office did not
formally control the referral from the Submission Processing function. The Electronic Tax
Administration office uses the Information Technology Assets Management System to control
issues relating to the adequacy of electronic tax administration, but the referral of the
depreciation expense problem was not entered and controlled on this system. Consequently, this
problem has not been resolved and the Submission Processing function must continue to
manually identify and correct the depreciation expenses on the tax returns.
Corporate Shareholder Distribution Reporting Errors: The Modernized e-File system is not
correctly reporting income distributions for Forms 1120 with an attached Consent Plan and
Apportionment Schedule for a Controlled Group (Schedule O). A Schedule O reports the
income distribution for each of the shareholders. The Modernized e-File system tax return
processing did not always capture the correct taxable income distribution.
                                                                                              Page 6
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



The Submission Processing function also provided email messages to the Electronic Tax
Administration office about this problem. This problem was controlled on the Information
Technology Assets Management System, and the Modernized e-File Project staff stated that this
problem was fixed. The Information Technology Assets Management System shows that the
problem was resolved in May 2007.
From January 1 through June 30, 2007, taxpayers submitted 883 Modernized e-File Form 1120
tax returns with different income distributions from Schedule O reported on the Modernized Tax
Return Database and the Business Master File for tax returns filed. We analyzed a sample of
64 of these tax returns with different income distributions from Schedule O. Of these 64 tax
returns, 18 tax returns with a Schedule O reporting inconsistency were not identified for
correction by the Submission Processing function.
The Electronic Tax Administration office also related that tax returns filed with a 2006
Schedule O or prior version might continue to have this problem. However, the 2007 version
will require all taxpayers to use the new format, which will alleviate this processing problem.

Several reasons caused the mismatches in tax information
Subsequent to project release testing, the IRS does not have a formal process for identifying,
reporting, and resolving Modernized e-File system processing issues. Further, the Submission
Processing function’s program reviews attributed inventory level variances and the need for
training staff to process these cases as reasons for not meeting its criteria for correctly processing
tax returns with mismatched conditions within 3 months. Resolution of mismatch conditions for
corporate tax returns required an average of more than 3 months, and resolution of partnership
tax returns required an average of 5 months. Actions were taken in June 2007 that began to
reduce the over-age inventories.
In addition, available front-end tax return validation controls are not being used to prevent
inaccurate tax returns from being accepted by the Modernized e-File system. These controls
notify taxpayers that they did not meet the qualifications for the entity or tax period used in filing
and would need to file a different form. This control prevents unnecessary tax return processing,
error resolution activity by the Submission Processing function, and correspondence with
taxpayers.
According to the Modernized e-File Project team and the Electronic Tax Administration office,
available front-end validation controls were not used because significant numbers of tax returns
were rejected for processing. The reason cited was that the National Account Profile
(a compilation of Master File information used as a reference to validate taxpayer entity
information) did not include current information, resulting in the significant number of rejected
tax returns.
The National Account Profile administrators stated that this information is updated weekly with
the latest Business Master File information. The National Account Profile is made available to

                                                                                               Page 7
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



IRS users including the Modernized e-File system. The administrators also stated that it was the
Modernized e-File Project team’s responsibility to capture the latest National Account Profile
information.

Mismatched information conditions will affect the IRS’ ability to provide timely
and effective customer service in the future
With the Department of the Treasury electronic filing mandate for corporations and exempt
organizations and the migration of tax return filing from paper to the electronic form, the IRS
can expect increases in the number of electronically filed tax returns. The increases will also add
to the number of tax returns that require manual resolution by the Submission Processing
function.
The IRS Office of Research has developed projections of the number of electronic tax return
filings the IRS can expect to receive through 2014. According to these projections, the numbers
of electronic tax returns for the Large and Mid-Size Business Division and the Small Business/
Self-Employed Division will increase approximately 290 percent each, while the Tax Exempt
and Government Entities Division can expect a 969 percent increase (Figure 3 on page 13
presents the basis for these projections).
Without implementing validation controls as part of the Modernized e-File system processing,
the increase in tax return filings requiring resolution by the Submission Processing function will
demand an increase in staffing, counter-balancing some of the benefits of electronic filing.
Considering the projections in electronic filing by the Office of Research and the rate of
occurrence of tax return rejections because of the need for conversion to the appropriate filing
status or the need to correct the tax return filing period, approximately 142,475 corporate and
partnership tax returns could be processed more efficiently over the next 5 years with installation
of front-end validation controls. Figure 2 presents an analysis of Modernized e-File system
processed tax returns requiring filing status or tax period correction.




                                                                                            Page 8
                                 Improvements to the Modernized e-File System
                                   Will Help Provide Intended Benefits to the
                                    Internal Revenue Service and Taxpayers



               Figure 2: Analysis of Modernized e-File Processed Tax Returns
                       Requiring Filing Status or Tax Period Correction

                                                            Tax Returns Needing Correction

                              Form Type                    Filing Status Tax Period           Total

                 Corporate (Forms 1120/1120S)                117,255           18,166       135,421

                 Partnership (Forms 1065/1065B)                  6,013           1,041         7,054

                 Potential Number of Tax Returns
                 Needing Correction                                                         142,475
               Source: Treasury Inspector General for Tax Administration extract of tax return account
               data from the Modernized Tax Return Database and the Business Master File for the
               period January 1 through June 30, 2007. The number of tax returns needing correction
               reflects a projection of the potential number of tax returns that may be filed with these
               conditions from 2008 through 2012.

The lengthy period needed to work with taxpayers to determine the proper filing status and
posting the taxpayers’ correct tax returns might result in the IRS’ inability to provide timely
customer service. Without providing this level of customer service, the IRS may be unable to
perform timely and appropriate compliance efforts.
Finally, Modernized e-File system weaknesses have the following potential effects:4
      •    Incorrect received dates in taxpayers’ account records may result in barred assessments or
           collections because of statute expirations. Based on the rate of occurrence of this
           condition in our sample, almost 77,000 tax returns might require review over the next
           5 years if the planned solutions are not effective.
      •    Incorrect reporting of depreciation expense calculations to the Modernized Tax Return
           Database requires the IRS to devote resources to the error resolution process. Based on
           the rate of occurrence of this condition in our sample, almost 67,000 tax returns might
           require correction over the next 5 years. This condition will continue if the reason for the
           miscalculations is not determined and adjusted to capture the appropriate depreciation
           information.
      •    Incorrect processing of Schedule O in the Modernized Tax Return Database requires the
           IRS to devote resources to correct the account information for processing by the Business


4
    See Appendix IV for the details of these outcome measures.

                                                                                                           Page 9
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers



       Master File. Based on the rate of occurrence of this condition in our sample, almost
       6,000 tax returns might require correction over the next 5 years if the planned solutions
       are not effective.

Recommendations:
Recommendation 1: The Commissioner, Wage and Investment Division, should require the
Director, Submission Processing, and the Director, Electronic Tax Administration, to develop a
formal process for identifying, reporting, and resolving Modernized e-File system application
processing issues that require subsequent tax return and account adjustment activity. This
control process will provide a means for identifying significant Modernized e-File system tax
return issues and provide the IRS with the ability to develop corrective actions. This control can
also be used to notify IRS staff of processing issues to enable appropriate compliance actions.
       Management’s Response: The Deputy Commissioner for Operations Support and
       the Deputy Commissioner for Services and Enforcement agreed with this
       recommendation and will use the Wage and Investment Division Submission Processing
       function’s Hot Topics application, currently under development, to provide a mechanism
       for identifying, elevating, and resolving issues. In addition, as the Submission Processing
       function’s Hot Topics evolve, the Wage and Investment Division Submission Processing
       function will determine how to gather and analyze the information to identify trends.
Recommendation 2: The Commissioner, Wage and Investment Division, should require the
Director, Submission Processing, and the Director, Electronic Tax Administration, to perfect the
validation controls to verify that taxpayers file the correct tax form based on their established
filing election. After perfecting the control, they should notify the Modernized e-File Project
team to implement the validation in processing tax returns through the Modernized e-File
system. This control will prevent the Modernized e-File system from accepting the incorrect tax
forms filed by taxpayers and, therefore, reduce the number of tax returns requiring Submission
Processing function staff involvement.
       Management’s Response: The Deputy Commissioner for Operations Support and
       the Deputy Commissioner for Services and Enforcement agreed with the
       recommendation for Form 1065 and Form 1120 and have implemented the proposed
       validation controls. The Deputy Commissioner for Operations Support and the Deputy
       Commissioner for Services and Enforcement proposed not implementing the validation
       control for Form 1120S at this time due to process and system limitations.
       Office of Audit Comment: We concur with management’s decision to postpone
       implementing the validation control for Form 1120S until process and system
       improvements allow this action.



                                                                                          Page 10
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers



The Modernized e-File System Is Not Being Used to the Extent
Originally Planned, and the Intended Benefits to the Business
Operating Divisions Are Not Being Achieved
The Modernized e-File system makes electronically filed tax return data available to the business
operating divisions and allows authorized users the ability to access, print, and download tax
return information. However, because of limitations in the system, users must access the
information via another system (the Employee User Portal), which limits viewing to one
document per command and printing and downloading to 15 documents per command.
Accessing additional information requires the user to continue navigating through the tax return
via the Employee User Portal. This is especially cumbersome when some corporate tax returns
can consist of several hundred pages.
The Modernized e-File Integration project was initiated in 2005 to provide the IRS with more
convenient access to data from Modernized e-File system tax returns. Early requirements for the
Modernized e-File Integration project showed that it planned to deliver the access, print, and
download capabilities for tax returns processed through the Modernized e-File system.
However, sufficient capabilities were not delivered. According to the Modernized e-File
Integration project team, funding was not available to allow the Modernized e-File Integration
project to deliver the access, print, and download capabilities for the business operating
divisions.

Users developed alternative applications to access tax return data
The Modernized e-File system is not being used to the extent originally planned, and the
intended benefits to the business operating divisions are not being achieved. As a result of the
data access limitations, the Large and Mid-Size Business Division and the Tax Exempt and
Government Entities Division are using their own systems to access Modernized e-File system
filed tax return data.
   •   The Statistics of Income office developed a process to create Portable Document Format
       images of tax returns for use by the Large and Mid-Size Business Division. The Large
       and Mid-Size Business Division entered into a partnership with the Statistics of Income
       office and, subsequently, with the Modernization and Information Technology Services
       organization. The current version of the Large and Mid-Size Business Imaging Network
       was the result.
   •   The Tax Exempt and Government Entities Division obtains a weekly download of
       Forms 990 from the Modernized Tax Return Database. The information is moved to the
       Tax Exempt and Government Entities Division’s electronic data warehouse and populates
       the Tax Exempt and Government Entities Division Returns Inventory and Classification
       System database.

                                                                                          Page 11
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



For the Large and Mid-Size Business Division and the Tax Exempt and Government Entities
Division to access Modernized e-File system data via these other systems, the data must go
through lengthy conversion and formatting processes. Conversion of data from a Modernized
e-File system tax return to the business operating divisions’ systems takes from several weeks to
several months. Delays of business operating division access to Modernized e-File system data
have caused:
   •   The Large and Mid-Size Business Division to delay examinations of several major
       corporations while waiting for tax return delivery. Also, there have been instances of
       Large and Mid-Size Business Division examination teams asking corporate taxpayers for
       paper copies of electronically filed tax returns because the teams did not want to wait for
       the Large and Mid-Size Business Image Network system to deliver the tax return image.
   •   The potential postponement of a major Fiscal Year 2008 Tax Exempt and Government
       Entities Division examination project on hospitals and universities.

The Small Business/Self-Employed Division is making only limited use of
Modernized e-File system data in its inventory and classification processes
Recently, the tax return data in the Modernized e-File
system have been used to identify tax returns for
examination activity. However, employees expressed                  The Small Business/Self-
concerns about performing this activity with an                 Employed Division generally does
                                                                not use electronic versions of tax
electronically displayed tax return. Among the concerns,             returns filed through the
employees stated that it takes them twice the time to               Modernized e-File system.
analyze a tax return electronically as compared to
performing this analysis with a paper tax return.
After the electronic tax return examination identification process is completed, the IRS campus
operations print the electronic tax returns selected for examination. The paper versions of the
electronic tax returns are controlled with a paper document transmittal form and shipped to the
appropriate offices for examination. The Small Business/Self-Employed Division does not use
the Modernized e-File system for tax return control, delivery, or examination processes, nor does
it capture cost data for the printing, shipping, and handling of tax returns filed using the
Modernized e-File system.
Electronic tax return filing is projected to have a significant effect on the Small Business/
Self-Employed Division’s inventory. The Small Business/Self-Employed Division informed us
that it currently does not receive a significant number of electronically filed tax returns in its
potential inventory. However, it actually receives a substantial number of these tax returns.
In 2007, Small Business/Self-Employed Division taxpayers submitted almost 1.26 million
electronically filed business tax returns. According to IRS Office of Research projections, the
number of electronically filed corporation and partnership tax returns the Small Business/

                                                                                           Page 12
                                                                             Improvements to the Modernized e-File System
                                                                               Will Help Provide Intended Benefits to the
                                                                                Internal Revenue Service and Taxpayers



Self-Employed Division will receive in the next 7 years will increase by almost 290 percent to
approximately 4.88 million (this is in addition to the 33.41 million electronically filed individual
tax returns it is projected to receive). Figure 3 presents the projections of electronically filed
corporate, partnership, and exempt organization tax returns through 2014.
      Figure 3: Projections of Electronically Filed Corporate, Partnership, and
                         Exempt Organization Tax Returns

                                                                              Projections of Electronically Filed Business Returns
                                                                                        By Business Operating Division
                                                                                               In Thousands (000)

                                                                     5,000                                                                                        4,884
                   Number of Electronically Filed Business Returns




                                                                                                                                                     4,527
                                                                     4,500
                                                                                                                                         4,139
                                                                     4,000
                                                                                                                           3,692
                                                                     3,500
                                                                                                             3,157
                                                                     3,000
                                                                                                2,528
                                                                     2,500

                                                                     2,000            1,859

                                                                     1,500    1,256

                                                                     1,000                                                                                  699          727
                                                                                                                    599           639          667
                                                                                          510          558
                                                                      500                                                                        237          256
                                                                                              131        164              193           216
                                                                             65   68 96
                                                                        0
                                                                             2007*    2008      2009         2010          2011         2012         2013         2014
                                                                                                             Calendar Year


                  Large and Mid-Size Business
                  Small Business/Self-Employed
                  Tax Exempt and Government Entities



Source: IRS Office of Research Calendar Year Return Projections for the United States and IRS campuses
CY 2007-2014 [Document 6186 (revised December 2007)]. Calendar Year 2007 presents actual tax returns filed.
Projections for 2008 through 2014 are based on the 2007 ratios of tax returns assigned for the different business
operating divisions’ activities and the Office of Research’s projected future number of electronically filed tax
returns.

The Small Business/Self-Employed Division’s ability to effectively and efficiently manage the
increasing volume of electronic tax returns may be strained under the current paper tax return
based processes. To address this condition, it is currently developing plans and initiatives to
work with electronic tax returns. These plans and initiatives are referred to as the Technology
and Data Integration Plan, which will be a comprehensive, working document that outlines
current business environment issues affecting the gathering, storage, manipulation, and

                                                                                                                                                                               Page 13
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



presentation of electronic tax account and tax return information. According to preliminary
information provided to us about the Technology and Data Integration Plan, only very limited
aspects of this initiative are included in the IRS Information Technology Modernization Vision
and Strategy. The Information Technology Modernization Vision and Strategy is the effort the
IRS has developed to determine the priorities around modernizing front-line tax administration,
and it leverages existing systems and new development to optimize capacity, manage program
costs, and deliver business value.
On an enterprise-wide basis, the IRS is developing the Enterprise Return Retrieval system. This
system is intended to provide the capabilities originally planned for the Modernized e-File
Integration project (access, print, and download of Modernized e-File tax returns). The IRS has
spent $1.5 million toward planning for development of the Enterprise Return Retrieval system
project and had planned to spend $5.25 million more in Fiscal Year 2008 for development
activities. However, the Enterprise Return Retrieval system is not currently funded for
development and is not incorporated into the Information Technology Modernization Vision and
Strategy.

Recommendation
Recommendation 3: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should ensure that the business operating divisions
and the Modernization and Information Technology Services organization coordinate the
capabilities of the Technology and Data Integration Plan initiative and the Enterprise Return
Retrieval system into the Information Technology Modernization Vision and Strategy.
Coordinating the Technology and Data Integration Plan and Enterprise Return Retrieval system
with the Information Technology Modernization Vision and Strategy will help the IRS to
achieve enterprise-wide capabilities for the identification, control, and analysis of electronic tax
return and taxpayer account information for customer service and compliance purposes.
       Management’s Response: The Deputy Commissioner for Operations Support and
       the Deputy Commissioner for Services and Enforcement agreed with this
       recommendation. The Small Business/Self-Employed Division submitted and prioritized
       the Enterprise Return Retrieval system project’s Release 1 investment proposal as part of
       the Fiscal Year 2010 Information Technology Modernization Vision and Strategy. The
       Small Business/Self-Employed Division will also submit future releases of the Enterprise
       Return Retrieval system project as investment proposals for corresponding Information
       Technology Modernization Vision and Strategy cycles.
       The Small Business/Self-Employed Division is developing the Technology and Data
       Integration Plan. This Plan will communicate the approach for using technology to
       achieve the Small Business/Self-Employed Division’s business objectives and supporting
       organizational priorities. This plan is not an enterprise plan, but the Small Business/

                                                                                             Page 14
                   Improvements to the Modernized e-File System
                     Will Help Provide Intended Benefits to the
                      Internal Revenue Service and Taxpayers



Self-Employed Division will use it to collaborate with other business operating divisions
and, where possible, maximize the application of technological initiatives.




                                                                                  Page 15
                                Improvements to the Modernized e-File System
                                  Will Help Provide Intended Benefits to the
                                   Internal Revenue Service and Taxpayers



                                                                                      Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to assess the accuracy and completeness of data
processed by the Modernized e-File system and determine whether the system provides the
intended benefits to the IRS and taxpayers. To accomplish these objectives, we:
I.         Determined whether the information processed by the Modernized e-File system to the
           Modernized Tax Return Database1 properly reported tax return information to the
           Business Master File.
           A. Identified and reviewed processes used by the Wage and Investment Division’s
              Submission Processing function to perfect tax return information from the
              Modernized Tax Return Database to the Business Master File.
           B. Compared the tax return information from the electronically filed tax returns received
              by the Modernized e-File system and maintained in the Modernized Tax Return
              Database to the tax return data posted to the Business Master File Business Return
              Transaction File. To perform the comparison, we:
               1. Obtained information for 936,026 tax returns electronically filed using the
                  Modernized e-File system from January 1 through June 30, 2007, and identified
                  11,601 tax returns with differences.
               2. An additional 11,587 tax returns filed through the Modernized e-File system
                  could not be located on the Business Master File by the tax return identification
                  number.
               3. Using a random interval selection process, selected samples of
                  713 electronically filed corporate, tax-exempt organization, and partnership tax
                  returns from the 23,188 returns (11,601 tax returns with differences plus
                  11,587 tax returns with no matching return identification number on the Business
                  Master File) and analyzed the status of the tax return information as of
                  January 23, 2008.
                   a) Divided these samples based on attributes such as type of tax return and tax
                      issue. When we sampled the corporate, tax-exempt organization, and
                      partnership returns, we used a 90 percent confidence level with a precision of
                      10 percent to determine the error rates in these populations.


1
    See Appendix VII for a Glossary of Terms.
                                                                                             Page 16
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers



              b) Performed complete reviews of accounts with attributes such as tax return line
                 item differences between the Modernized Tax Return Database and Business
                 Master File that were made up of relatively small populations.
              c) Used random sampling to ensure that each account had an equal chance of
                 being selected, which enabled us to obtain sufficient evidence to support our
                 results. Appendix V provides details about the sampling attributes and
                 populations of Modernized e-File system tax returns filed and analyzed during
                 our review period.
       C. Interviewed staff from the Modernized e-File Project, the Wage and Investment
          Division’s Submission Processing function, and the Electronic Tax Administration
          office to determine why there were differences in data posted to the Modernized Tax
          Return Database and the information recorded in the Business Master File.
       D. Reviewed the Modernized e-File system user requirements to determine whether any
          of the differences identified in postings to the Modernized Tax Return Database and
          the Business Master File were based on the system requirements.
II.    Determined whether the Modernized e-File system was effectively utilized and met the
       intended benefits of its customers. To make this determination, we:
       A. Interviewed Large and Mid-Size Business Division, Small Business/
          Self-Employed Division, and Tax Exempt and Government Entities Division staff
          and obtained documentation to determine the effectiveness of the Modernized e-File
          system in meeting customer needs and requirements.
       B. Reviewed and analyzed the process examiners use for accessing tax return
          information, including the Modernized e-File system, and user requirements for
          retrieval, display, printing, and downloading tax return information.

Validity and reliability of data from computer-based systems
We obtained corporate, tax-exempt organization, and partnership tax return data processed by the
Modernized e-File system and stored on the Modernized Tax Return Database. We compared
these data to information processed and stored in the Business Master File. We used the tax
return identification number--called the document locator number--as the control to validate the
accuracy of the matching of the tax return information stored on the Modernized Tax Return
Database and the Business Master File. Our reviews found the data were sufficiently reliable to
perform our audit analyses.




                                                                                        Page 17
                         Improvements to the Modernized e-File System
                           Will Help Provide Intended Benefits to the
                            Internal Revenue Service and Taxpayers



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Michael A. Garcia, Senior Auditor
Glen J. Rhoades, Senior Auditor
Wallace C. Sims, Senior Auditor
Beverly K. Tamanaha, Senior Auditor
Robert J. Carpenter, Senior Information Technology Specialist
Arlene Feskanich, Senior Information Technology Specialist




                                                                                      Page 18
                        Improvements to the Modernized e-File System
                          Will Help Provide Intended Benefits to the
                           Internal Revenue Service and Taxpayers



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff
Chief Information Officer OS:CIO
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Office of Research, Analysis, and Statistics RAS:O
Director, Office of Research RAS:R
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 19
                                  Improvements to the Modernized e-File System
                                    Will Help Provide Intended Benefits to the
                                     Internal Revenue Service and Taxpayers



                                                                                   Appendix IV

                                        Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Taxpayer Burden – Potential; 142,475 tax returns affected (see page 3).

Methodology Used to Measure the Reported Benefit:
When Modernized e-File system tax returns are not posted in a timely manner to the Business
Master File,1 a taxpayer might be asked to provide to the IRS copies of the tax return or evidence
that the tax return was filed, even though the taxpayer electronically filed the tax return using the
Modernized e-File system and received acceptance from the IRS. If validation controls are
added to the Modernized e-File system, invalid tax returns filed through the system would be
rejected and the taxpayer would be notified that the tax return needs to be corrected to be
accepted by the IRS. Based on the rate of occurrence from our sample of tax returns filed using
the Modernized e-File system from January 1 through June 30, 2007, taxpayers might be
contacted regarding the correct filing requirement for 142,475 tax returns filed from 2008
through 2012.

       Form Type2                Correction Needed                   Number of Tax Returns
       Form 1120/1120S           Filing Status                                           117,255
       Form 1120/1120S           Tax Period                                                18,166
       Form 1065/1065B           Filing Status                                              6,013
       Form 1065/1065B           Tax Period                                                 1,041

                                 Potential Number of Tax Returns
                                                                                         142,475
                                 Needing Correction




1
    See Appendix VII for a Glossary of Terms.
2
    The subsequent narrative defines the Form titles.
                                                                                             Page 20
                        Improvements to the Modernized e-File System
                          Will Help Provide Intended Benefits to the
                           Internal Revenue Service and Taxpayers



U.S. Corporation Income Tax Returns (Form 1120) and the U.S. Income Tax Returns for
an S Corporation (Form 1120S) filed in which the tax return type does not match the
taxpayers filing status recorded in the Business Master File
   600,983      Population of Forms 1120/1120S filed using the Modernized e-File system
                from January 1 through June 30, 2007.
   11,005       Number of Forms 1120/1120S filed using the Modernized e-File system from
                January 1 through June 30, 2007, that did not have a matching tax return
                control number in the Business Master File.
   1.8312%      Percentage of Modernized e-filed Forms 1120/1120S filed using the
                Modernized e-File system from January 1 through June 30, 2007, that did not
                have a matching tax return control number on the Business Master File.
                (11,005/600,983)
   11,183,000   Projected number of Forms 1120/1120S to be filed from 2008 through 2012
                using the Modernized e-File system. (Projected number of tax returns based
                on IRS Office of Research Calendar Year Return Projections for the United
                States and IRS campuses CY 2007-2014 [Document 6186 (revised December
                2007: 2008 – 1,296,100; 2009 – 1,803,600; 2010 – 2,291,900; 2011 -
                2,715,200; 2012 - 3,076,200)
   204,783      Projected number of Forms 1120/1120S to be filed from 2008 through 2012
                using the Modernized e-File system that might not have a matching tax return
                control number in the Business Master File. (11,183,000 x 1.8312%)
   57.2581%     Percentage of tax returns based on our samples of Forms 1120/1120S filed
                using the Modernized e-File system from January 1 through June 30, 2007,
                that were rejected for processing because the filed tax return did not match the
                filing status recorded in the Business Master File. These tax returns required
                additional research by the Submission Processing function. (71/124)
   117,255      Projected number of Forms 1120/1120S to be filed from 2008 through 2012
                that might be rejected for processing because the tax return type does not
                match the taxpayers filing status recorded in the Business Master File.
                (204,783 x 57.2581%)
   U.S. Return of Partnership Income (Form 1065) and the U.S. Return of Income for
   Electing Large Partnerships (Form 1065-B) filed in which the tax return type does not
   match the taxpayers filing status recorded in the Business Master File
   319,671      Population of Forms 1065/1065B filed using the Modernized e-File system
                from January 1 through June 30, 2007.


                                                                                        Page 21
                        Improvements to the Modernized e-File System
                          Will Help Provide Intended Benefits to the
                           Internal Revenue Service and Taxpayers



   548           Number of Forms 1065/1065B filed using the Modernized e-File system from
                 January 1 through June 30, 2007, that did not have a matching tax return
                 control number in the Business Master File.
   0.1714%       Percentage of Modernized e-filed Forms 1065/1065B filed using the
                 Modernized e-File system from January 1 through June 30, 2007, that did not
                 have a matching tax return control number on the Business Master File.
                 (548/319,671)
   4,992,400     Projected number of Forms 1065/1065B to be filed from 2008 through 2012
                 using the Modernized e-File system. (Projected number of tax returns based
                 on IRS Office of Research Calendar Year Return Projections for the United
                 States and IRS campuses CY 2007-2014 [Document 6186 (revised December
                 2007: 2008 – 659,300; 2009 – 855,900; 2010 – 1,029,100; 2011 - 1,169,200;
                 2012 - 1,278,900)
   8,557         Projected number of Forms 1065/1065B to be filed from 2008 through 2012
                 using the Modernized e-File system that might not have a matching tax return
                 control number in the Business Master File. (4,992,400 x 0.1714%)
   70.2703%      Percentage of tax returns based on our samples of Forms 1065/1065B filed
                 using the Modernized e-File system from January 1 through June 30, 2007,
                 that were rejected for processing because the filed tax return did not match the
                 filing status recorded in the Business Master File. These tax returns required
                 additional research by the Submission Processing function. (52/74)
   6,013         Projected number of Forms 1065/1065B to be filed from 2008 through 2012
                 that might be rejected for processing because the tax return type does not
                 match the taxpayers filing status recorded in the Business Master File.
                 (8,557 x 70.2703%)
Form 1120/1120S filed in which the tax return tax period does not match the taxpayers’ tax
period recorded in the Business Master File
   204,783       Projected number of Forms 1120/1120S to be filed from 2008 through 2012
                 using the Modernized e-File system that might not have a matching tax return
                 control number in the Business Master File. (11,183,000 x 1.8312%)
   8.8709%       Percentage of tax returns based on our samples of Forms 1120/1120S filed
                 using the Modernized e-File system from January 1 through June 30, 2007,
                 that were rejected for processing because the filed tax return did not match the
                 filing tax period recorded in the Business Master File. These tax returns
                 required additional research by the Submission Processing function. (11/124)



                                                                                         Page 22
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



    18,166         Projected number of Forms 1120/1120S to be filed from 2008 through 2012
                   that might be rejected for processing because the tax return tax period does
                   not match the taxpayers’ tax period recorded in the Business Master File.
                   (204,783 x 8.8709%)
Form 1065/1065B filed in which the tax return tax period does not match the taxpayers’
tax period recorded in the Business Master File
    8,557          Projected number of Forms 1065/1065B to be filed from 2008 through 2012
                   using the Modernized e-File system that might not have a matching tax return
                   control number in the Business Master File. (4,992,400 x 0. 1714%)
    12.1622%       Percentage of tax returns based on our samples of Forms 1065/1065B filed
                   using the Modernized e-File system from January 1 through June 30, 2007,
                   that were rejected for processing because the filed tax return did not match the
                   filing tax period recorded in the Business Master File. These tax returns
                   required additional research by the Submission Processing function. (9/74)
    1,041          Projected number of Forms 1065/1065B to be filed from 2008 through 2012
                   that might be rejected for processing because the tax return tax period does
                   not match the taxpayers’ tax period recorded in the Business Master File.
                   (8,557 x 12.1622%)

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 5,923 tax returns affected (see page 3).

Methodology Used to Measure the Reported Benefit:
The Modernized e-File system is not correctly reporting income distributions for Form 1120 or
Form 1120S with an attached Consent Plan and Apportionment Schedule for a Controlled Group
(Schedule O). If a Schedule O with an incorrect processing of income distribution is not
identified for review by the Submission Processing function, the apportionment information for
the taxpayer will be incorrectly recorded in the Business Master File. Based on the rate of
occurrence from our sample of tax returns, 5,923 taxpayer accounts from 2008 through 2012
might report incorrect apportionment information.
    129,634        Population of Forms 1120 filed using the Modernized e-File system from
                   January 1 through June 30, 2007.
    883            Number of Forms 1120 filed using the Modernized e-File system from
                   January 1 through June 30, 2007, that included a Schedule O.




                                                                                           Page 23
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



    0.6811%        Percentage of Forms 1120 that included a Schedule O that were filed using the
                   Modernized e-File system from January 1 through June 30, 2007.
                   (883/129,634)
    3,092,000      Projected number of Form 1120 tax returns to be filed from 2008 through
                   2012 using the Modernized e-File system. (Projected number of tax returns
                   based on IRS Office of Research Calendar Year Return Projections for the
                   United States and IRS campuses CY 2007-2014 [Document 6186 (revised
                   December 2007: 2008 – 364,900; 2009 – 508,100; 2010 – 640,300;
                   2011 – 747,100; 2012 – 831,600)
    21,060         Projected number of Forms 1120 to be filed from 2008 through 2012 using the
                   Modernized e-File system that will include a Schedule O.
                   (3,092,000 x 0.6811%)
    28.125%        Percentage based on a sample of Forms 1120 that included a Schedule O that
                   were filed using the Modernized e-File system from January 1 through
                   June 30, 2007, and were not identified for error correction. (18/64)
    5,923          Projected number of Forms 1120 to be filed from 2008 through 2012 that
                   might report incorrect apportionment information for taxpayers.
                   (21,060 x 28.125%)

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 76,948 tax returns affected (see page 3).

Methodology Used to Measure the Reported Benefit:
Form 1120/1120S corporate tax returns filed through the Modernized e-File system that are
converted to a different tax form type do not always include the correct received date in the
Business Master File. The incorrect received date could result in a potential loss of interest,
penalties, and assessments due to statute expiration. Based on the rate of occurrence from our
sample of tax returns, 76,948 taxpayer accounts have the potential to include an incorrect
received date in the Business Master File for tax returns filed from 2008 through 2012.
    117,255        Projected number of Forms 1120/1120S to be filed from 2008 through 2012
                   that might be rejected in processing because the tax return type does not
                   match the taxpayers filing requirement in the Business Master File. (See
                   calculations for Taxpayer Burden outcome measure.)
    65.625%        Percentage of tax returns based on our samples of the Forms 1120/1120S filed
                   using the Modernized e-File system from January 1 through June 30, 2007,
                   that were converted to a different tax form type and might not have the correct
                   received date in the Business Master File. (42/64)

                                                                                          Page 24
                Improvements to the Modernized e-File System
                  Will Help Provide Intended Benefits to the
                   Internal Revenue Service and Taxpayers



76,948   Number of Forms 1120/1120S to be filed from 2008 through 2012 that have
         the potential to have an incorrect received date. (117,255 x 65.625%)




                                                                          Page 25
                              Improvements to the Modernized e-File System
                                Will Help Provide Intended Benefits to the
                                 Internal Revenue Service and Taxpayers



                                                                                              Appendix V

    Analysis of Modernized e-File Tax Return Sample

Tables 1 through 4 present the results of our analysis of corporation, partnership, and
tax-exempt organization tax returns filed using the Modernized e-File system from January 1
through June 30, 2007.1 The tables include the population of tax returns, the number of tax
returns filed using the Modernized e-File system that did not have a matching return
identification number in the Business Master File,2 the number of returns with return differences
between the Modernized Tax Return Database and the Business Master File, and the number of
tax returns we reviewed in our samples.
We sampled the corporate, tax-exempt organization, and partnership tax returns with a
90 percent confidence level and a precision of 10 percent to determine the error rates in these
populations. We also performed complete reviews of accounts with attributes such as tax return
line item differences between the Modernized Tax Return Database and the Business Master File
that were made up of relatively small populations. We used random sampling to ensure that each
account had an equal chance of being selected, which enabled us to obtain sufficient evidence to
support our results. The following tables include details about the sampling attributes we used to
determine the reported error rates.




1
  The tax returns analyzed were filed using the U.S. Corporation Income Tax Return (Form 1120), the U.S. Income
Tax Return for an S Corporation (Form 1120S), the Return of Organization Exempt From Income Tax (Form 990),
the U.S. Return of Partnership Income (Form 1065), and the U.S. Return of Income for Electing Large Partnerships
(Form 1065-B).
2
  See Appendix VII for a Glossary of Terms.
                                                                                                        Page 26
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



Table 1: Corporation Tax Returns Filed Using the Modernized e-File System
                  From January 1 Through June 30, 2007
                                             Form 1120         Form 1120S          Totals for Form
                                                                                     1120/1120S
           Modernized e-File                   129,634            471,349               600,983
      Corporation Tax Returns Filed
      Modernized e-File Corporation             1,970               9,035               11,005
         Tax Returns Not in the
          Business Master File
               Sampled                            71                 53                   124
      Modernized e-File Corporation
         Tax Returns Not in the
          Business Master File
      Modernized e-File Corporation             5,413               5,249               10,662
      Tax Returns With Differences

               Sampled                           169                 151                  320
      Modernized e-File Corporation
      Tax Returns With Differences
        Total Modernized e-File                  240                 204                  444
        Corporation Tax Returns
               Sampled

  Source: Treasury Inspector General for Tax Administration extract of tax return account data
  from the Modernized Tax Return Database and the Business Master File for the period
  January 1 through June 30, 2007.
  Sample Parameters:
  •     Modernized e-File Corporation Tax Returns Not in the Business Master File – We
        statistically sampled 41 Forms 1120 and 23 Forms 1120S using a 90 percent confidence level
        with a 10 percent precision. The remaining 30 Forms 1120 and 30 Forms 1120S were used as
        preliminary samples to review attributes of these tax returns. Because significant issues within
        these preliminary samples were not identified, no further testing was required.
  •     Modernized e-File Corporation Tax Returns With Differences – We statistically sampled
        64 Forms 1120 using a 90 percent confidence level with a 10 percent precision. The remaining
        105 Forms 1120 and 151 Forms 1120S were used as preliminary samples to review attributes
        of these tax returns. Because significant issues within these preliminary samples were not
        identified, no further testing was required.




                                                                                                           Page 27
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers



Table 2: Partnership Tax Returns Filed Using the Modernized e-File System
                  From January 1 Through June 30, 2007
                                      Form 1065         Form 1065B            Totals for Form
                                                                                1065/1065B
         Modernized e-File             319,663                8                   319,671
      Partnership Tax Returns
               Filed
         Modernized e-File               548                  0                     548
      Partnership Tax Returns
             Not in the
        Business Master File
             Sampled                      74                  0                      74
         Modernized e-File
      Partnership Tax Returns
        Not in the Business
            Master File
         Modernized e-File               440                  8                     448
      Partnership Tax Returns
          With Differences
        Sampled Modernized                65                  8                      73
       e-File Partnership Tax
      Returns With Differences
      Total Modernized e-File            139                  8                     147
      Partnership Tax Returns
             Sampled

  Source: Treasury Inspector General for Tax Administration extract of tax return account data
  from the Modernized Tax Return Database and the Business Master File for the period
  January 1 through June 30, 2007.
  Sample Parameters:
  •    Modernized e-File Partnership Tax Returns Not in the Business Master File – We
       statistically sampled 61 Forms 1065 using a 90 percent confidence level with a 10 percent
       precision. We reviewed the remaining 13 Forms 1065 that were included in the Business
       Master File with a different return identification number.
  •    Modernized e-File Corporation Tax Returns With Differences – The 65 Forms 1065 and
       8 Forms 1065B were used as preliminary samples to review attributes of these tax returns.
       Because significant issues within these preliminary samples were not identified, no further
       testing was required.




                                                                                                     Page 28
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers



        Table 3: Tax-Exempt Organization Returns Filed Using the
      Modernized e-File System From January 1 Through June 30, 2007
                                Form 990       Form 990EZ       Form 990PF        Totals for Form
                                                                                 990/990EZ/990PF
      Modernized e-File          11,088            2,514            1,770              15,372
     Tax-Exempt Returns
            Filed
      Modernized e-File             34               0                0                  34
     Tax-Exempt Returns
      Not in the Business
         Master File
           Sampled                  34               0                0                  34
      Modernized e-File
     Tax-Exempt Returns
      Not in the Business
         Master File
      Modernized e-File            381              93                17                 491
     Tax-Exempt Returns
      With Differences

          Sampled                   40              31                17                 88
      Modernized e-File
     Tax-Exempt Returns
      With Differences

           Total                    74              31                17                 122
      Modernized e-File
     Tax-Exempt Returns
          Sampled

Source: Treasury Inspector General for Tax Administration extract of tax return account data from
the Modernized Tax Return Database and the Business Master File for the period January 1 through
June 30, 2007.
Sample Parameters:
 •     Modernized e-File Tax-Exempt Organization Returns Not in the Business Master File –
       We reviewed all 34 Forms 990 that were included in the Business Master File with a different
       return identification number.
 •     Modernized e-File Tax-Exempt Organization Returns With Differences – The 40
       Forms 990, 31 Forms 990EZ, and 17 Forms 990PF were used as preliminary samples to review
       attributes of these tax returns. Because significant issues within these preliminary samples
       were not identified, no further testing was required.



                                                                                                      Page 29
                        Improvements to the Modernized e-File System
                          Will Help Provide Intended Benefits to the
                           Internal Revenue Service and Taxpayers



      Table 4: Tax Returns Filed Using the Modernized e-File System
                 From January 1 Through June 30, 2007
                              Totals for      Totals for       Totals for      Totals for All
                               Form             Form            Form          Modernized e-File
                             1120/1120S      1065/1065B       990/990EZ/         Returns
                                                                990PF
    Modernized e-File          600,983         319,671           15,372             936,026
    Tax Returns Filed
    Modernized e-File          11,005            548               34               11,587
  Tax Returns Not in the
   Business Master File
    Modernized e-File            124              74               34                 232
   Sampled Modernized
  e-File Tax Returns Not
  in the Business Master
            File
    Modernized e-File          10,662            448              491               11,601
    Tax Returns With
       Differences
        Sampled                  320              73               88                 481
    Modernized e-File
    Tax Returns With
       Differences
         Total                   444             147              122                 713
   Modernized e-File
  Tax Returns Sampled

Source: Treasury Inspector General for Tax Administration extract of tax return account data from
the Modernized Tax Return Database and the Business Master File for the period January 1 through
June 30, 2007.




                                                                                                Page 30
                                Improvements to the Modernized e-File System
                                  Will Help Provide Intended Benefits to the
                                   Internal Revenue Service and Taxpayers



                                                                                     Appendix VI

                          Enterprise Life Cycle Overview

The Enterprise Life Cycle1 is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
      •    Development of and conformance to an enterprise architecture.
      •    Improving business processes prior to automation.
      •    Use of prototyping and commercial software, where possible.
      •    Obtaining early benefit by implementing solutions in multiple releases.
      •    Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the layers, paths, phases, and milestones (shown as “MS” in
Figure 1) within the Enterprise Life Cycle Framework.




1
    See Appendix VII for a Glossary of Terms.
                                                                                          Page 31
                                                          Improvements to the Modernized e-File System
                                                            Will Help Provide Intended Benefits to the
                                                             Internal Revenue Service and Taxpayers



                                                     Figure 1: Enterprise Life Cycle Framework
    Governance Management




                                                                                              Acquisition Management
                  Layer




                                                                                               Program Management

                                                                                        Implementation Project Management
      Layer




                                                             MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                            Large Custom Path
                            Small Custom Path
    Solution Life Cycle




                            Commercial-Off-the-
                            Shelf Path             Vision and
                                                   Strategy /                           Domain                                          System           System       Operations and
           Layer




                            Joint Application                         Project                         Preliminary Detailed Design
                                                   Enterprise                         Architecture                                    Development      Deployment      Maintenance
                            Development /                        Initiation Phase                    Design Phase     Phase
                                                  Architecture                           Phase                                           Phase           Phase            Phase
                            Rapid Application
                                                     Phase
                            Development Path
                            Iterative Custom
                            Path
    Methodology Solution




                                                  Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
                 Layer




                                                  Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                    Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
       Layer




                                                                        Developer's Business Change or System Change Methodology



                                                                                    Enterprise Integration, Test, and Evaluation
    Specialty Areas




                                                                                    Business Rules Harvesting and Management
                                                                                               Transition Management
        Layer




                                                                                               Enterprise Architecture
                                                                                      Capital Planning and Investment Control
                                                                                                Security and Privacy
                                                                                    Requirements Development and Management


Source: Graphical representation of the Enterprise Life Cycle Framework modified from the Enterprise Life Cycle
Guide.

Enterprise Life Cycle Layers
The Enterprise Life Cycle is a framework for organizing and using IRS directives, processes,
procedures, templates, and standards to accomplish business change. It is organized as a set of
six interacting layers.
      •                     The Management Layer specifies how to plan and control business change programs,
                            projects, acquisitions, and solutions throughout the Enterprise Life Cycle.
      •                     The Governance Layer specifies additional controls imposed from outside the project or
                            program.
      •                     The Solution Life Cycle Layer specifies what should be done, but not how to do it.
      •                     The Solution Layer manages the solution as it is produced, including providing
                            standards for consistent solution specification and formal review of solution content.


                                                                                                                                                                          Page 32
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



       This Layer provides control over work products that may be produced by multiple
       internal and external developers using differing methodologies.
   •   The Methodology Layer details how to do the work and specifies a unique set of work
       products to be produced. Specific methodologies are not part of the Enterprise Life
       Cycle Framework.
   •   The Specialty Areas Layer provides additional guidance for areas of particular
       importance within the IRS. These areas include Enterprise Integration, Test, and
       Evaluation; Business Rules Harvesting and Management; Transition Management;
       Enterprise Architecture; Capital Planning and Investment Control; Security and Privacy;
       and Requirements Development and Management.

Enterprise Life Cycle Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
Enterprise Life Cycle specifies a standard for the work required to produce and operate business
change solutions, there are multiple ways to approach and accomplish the required work. Paths
are like alternate roads, each of which crosses different terrain, but all of which lead to the same
destination. The Enterprise Life Cycle provides five distinct paths or approaches to developing
systems:
   •   The Large Custom Path is for large projects.
   •   The Small Custom Path is for small projects.
   •   The Commercial-Off-the-Shelf Path is a commercial software-based approach.
   •   The Joint Application Development/Rapid Application Development Path is a highly
       accelerated, prototyping-based approach for very small, standalone solutions or solution
       components.
   •   The Iterative Custom Path is a hybrid approach that combines elements of the other
       approaches.

Enterprise Life Cycle Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.



                                                                                             Page 33
                           Improvements to the Modernized e-File System
                             Will Help Provide Intended Benefits to the
                              Internal Revenue Service and Taxpayers



             Figure 2: Enterprise Life Cycle Phases and Milestones
                                                   General Nature                       Concluding
            Phase                                      of Work                           Milestone
Vision and Strategy/            High-level direction setting. This is the only phase
                                                                                            0
Enterprise Architecture Phase   for enterprise planning projects.
                                                                                            1
Project Initiation Phase        Startup of development projects.

Domain Architecture Phase       Specification of the operating concept, requirements,       2
                                and structure of the solution.
                                                                                            3
Preliminary Design Phase        Preliminary design of all solution components.
                                                                                           4A
Detailed Design Phase           Detailed design of solution components.

System Development Phase        Coding, integration, testing, and certification of         4B
                                solutions.

System Deployment Phase         Expanding availability of the solution to all target
                                                                                            5
                                users. This is usually the last phase for development
                                projects.
                                                                                         System
Operations and Maintenance      Ongoing management of operational systems.
                                                                                        Retirement
Phase
Source: The Enterprise Life Cycle Guide.




                                                                                                Page 34
                          Improvements to the Modernized e-File System
                            Will Help Provide Intended Benefits to the
                             Internal Revenue Service and Taxpayers



                                                                            Appendix VII

                                Glossary of Terms

Term                                Definition
Business Master File                The IRS database that consists of Federal
                                    tax-related transactions and accounts for businesses.
                                    These include employment taxes, income taxes on
                                    businesses, and excise taxes.
Business Systems Modernization      Begun in 1999, it is a complex effort to modernize IRS
                                    technology and related business processes.
Campus                              The data processing arm of the IRS. The campuses
                                    process paper and electronic submissions, correct errors,
                                    and forward data to the Computing Centers for analysis
                                    and posting to taxpayer accounts.
Computing Centers                   Support tax processing and information management
                                    through a data processing and telecommunications
                                    infrastructure.
Employee User Portal                A web-hosting infrastructure that supports an Intranet
                                    portal that allows IRS employees to access business
                                    applications and data.
Enterprise Life Cycle               A structured business systems development method that
                                    requires the preparation of specific work products
                                    during different phases of the development process.
Federal/State Single Point Filing   Permits tax return transmitters to submit multiple
System                              Federal and State tax return types within one electronic
                                    transmission and to receive acknowledgement of the
                                    transmission from the IRS.
Information Technology Asset        Delivers an inventory system that enables tracking,
Management System                   reporting, and management of information technology
                                    assets.




                                                                                     Page 35
                         Improvements to the Modernized e-File System
                           Will Help Provide Intended Benefits to the
                            Internal Revenue Service and Taxpayers



Term                                   Definition
Information Technology                 Establishes a 5-year plan that drives investment
Modernization Vision and Strategy      decisions, addresses the priorities around modernizing
                                       front-line tax administration and supporting technical
                                       capabilities, and leverages existing systems (where
                                       possible) and new development (where necessary) to
                                       optimize capacity, manage program costs, and deliver
                                       business value on a more incremental and frequent
                                       basis.
Large and Mid-Size Business            The workload delivery system that captures scanned
Imaging Network                        images of currently filed U.S. Return of Partnership
                                       Income (Form 1065) and U.S. Corporation Income
                                       (Form 1120) tax returns and delivers them to examiners
                                       in an electronic format. It also delivers Modernized
                                       e-File system tax returns.
Master File                            The IRS database that stores various types of taxpayer
                                       account information. It includes individual, business,
                                       and employee plans and exempt organization data.
Modernized e-File Integration          A project to provide the IRS with convenient access to
                                       timely data from Modernized e-File system processed
                                       tax returns for classification, workload management,
                                       compliance research, examination, and other purposes.
Modernized Tax Return Database         The legal repository for original electronically filed tax
                                       returns received by the IRS through the Modernized
                                       e-File system.
Platform                               A computer system on which application programs can
                                       run.
Portable Document Format               A fixed-layout document format used for representing
                                       two-dimensional documents in a manner independent of
                                       the application software, hardware, and operating
                                       system.
Release                                A specific edition of software.
Returns Inventory and Classification   Enables query, research, and reporting access to Return
System                                 of Organization Exempt From Income Tax (Form 990)
                                       series Modernized e-File system data.



                                                                                          Page 36
                         Improvements to the Modernized e-File System
                           Will Help Provide Intended Benefits to the
                            Internal Revenue Service and Taxpayers



Term                               Definition
System Integration and Testing     Verifies that each individual work product (such as
                                   application software, technical infrastructure, facility,
                                   documentation, or training material) still meets
                                   requirements when integrated with the rest of the release
                                   and the business system.
Technology and Data Integration    A comprehensive, working document in development by
Plan                               the Small Business/Self-Employed Business Division
                                   that will outline current business environment issues
                                   affecting the gathering, storage, manipulation, and
                                   presentation of electronic tax account and tax return
                                   information.




                                                                                    Page 37
         Improvements to the Modernized e-File System
           Will Help Provide Intended Benefits to the
            Internal Revenue Service and Taxpayers



                                                Appendix VIII

Management’s Response to the Draft Report




                                                        Page 38
Improvements to the Modernized e-File System
  Will Help Provide Intended Benefits to the
   Internal Revenue Service and Taxpayers




                                               Page 39
Improvements to the Modernized e-File System
  Will Help Provide Intended Benefits to the
   Internal Revenue Service and Taxpayers




                                               Page 40
Improvements to the Modernized e-File System
  Will Help Provide Intended Benefits to the
   Internal Revenue Service and Taxpayers




                                               Page 41
